                                    EVALUATION




 BUREAU OF INDIAN AFFAIRS’
 LAW ENFORCEMENT RECRUITMENT
 SERVICES CONTRACT WITH THE
 NATIONAL NATIVE AMERICAN LAW ENFORCEMENT
 ASSOCIATION




Report No.: WR-EV-BIA-0005-2011         May 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR
                                                                              MAY D 9 2012

Memorandum

To:            Donald Laverdure
               Acting Assistant Secretary - Indian Affairs
                            '--
From:          Mary L. Kendall
               Acting Inspector General

Subject:       Final Evaluation Report - Bureau oflndian Affairs' Law Enforcement
               Recruitment Services Contract with the National Native American Law
               Enforcement Association
               Report No. WR-EV-BIA-0005-2011

        This memorandum transmits the results of our final report detailing the results of our
evaluation of the Bureau oflndian Affairs' (BIA) law enforcement recruitment services contract
with the National Native American Law Enforcement Association (NNALEA). Our objective
was to determine if the BIA Office of Justice Services (OJS) received the intended benefit by
awarding a recruitment services contract to NNALEA.

        We found that OJS received no benefit when they awarded a recruitment services
contract to NNALEA, thus wasting almost $1 million. This occurred because the Bureau violated
Federal procurement regulations and Departmental policy and failed to use its Office of Human
Capital Management to develop required contract terms. These failures resulted in a poorly
written contract, which was developed in conjunction with NNALEA. The contract contained
significant defects, allowing NNALEA to take advantage of OJS to produce unusable contract
deliverables. Our report includes arecommendation to help the Bureau prevent this from
situation from reoccurring.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

     A response to this report is not required. If you have any questions regarding this
memorandum or the subject report, please contact me at 202-208-5745.




                               Office of Inspector General I Washington, DC
         Table of Contents
         Results in Brief ....................................................................................................... 1


         Introduction ............................................................................................................. 2

            Objective ............................................................................................................. 2

            Background ......................................................................................................... 2


          Findings.................................................................................................................. 5

            BIA Violated Federal Acquisition Regulations .................................................. 5

               Contract Award................................................................................................ 5

               Acquisition Planning and Market Research .................................................... 5

               Competition ..................................................................................................... 6

               Cost Reasonableness........................................................................................ 6

               Performance-Based Acquisition ...................................................................... 6

               Statement of Work........................................................................................... 7

               Expertise of Evaluation Panelists .................................................................... 7

               Required Solicitor Review............................................................................... 8

               Termination ..................................................................................................... 8

            NNALEA Capitalized on Bureau Failures.......................................................... 8

               Modified Statement of Work ........................................................................... 8

               BIA Officials Lacked Experience.................................................................... 9

               Human Resources Office Involvement Omitted ............................................. 9

               Unusable Deliverables ................................................................................... 10

               Conflicting Reported Accomplishments ....................................................... 10


         Conclusion and Recommendation ........................................................................ 12

            Conclusion......................................................................................................... 12

            Recommendation............................................................................................... 12


         Appendix 1: Scope, Methodology, and Sites Visited and/or Contacted............... 13

            Scope ................................................................................................................. 13

            Methodology ..................................................................................................... 13

            Site Visits and Contacts..................................................................................... 13





All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         Appendix 2: Funds to be Put to Better Use........................................................... 14


         Appendix 3: Federal Regulations.......................................................................... 15


         Appendix 4: Unusable Contract Deliverables....................................................... 19





All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         Results in Brief
         In 2009, we evaluated staffing needs for the Bureau of Indian Affair’s (BIA)
         detention facilities. At that time, we learned that BIA awarded a $1 million
         contract to the National Native American Law Enforcement Association
         (NNALEA), a 501 (c) nonprofit organization, to recruit needed law enforcement
         officers to work in Indian Country. Our review identified deficiencies in both the
         award process and contract terms. We issued a management advisory report,
         recommending that BIA terminate the contract.

         Based on that report and advice from the Solicitor’s Office, BIA terminated the
         contract on February 25, 2010. At the time of termination, the contract had been
         in place for 8 months and BIA paid NNALEA nearly the entire contract value of
         $1 million. We conducted this evaluation to determine if the Office of Justice
         Services (OJS) received the intended benefit from the contract.

         Our evaluation determined that OJS received no benefit from the award of a
         recruitment services contract to NNALEA. We found that BIA awarded a
         defective contract, disenfranchised potential job applicants, and wasted nearly $1
         million of Federal funds. This occurred because BIA violated Federal Acquisition
         Regulations and Departmental policy and failed to use its Office of Human
         Capital Management to develop required contract terms. These failures resulted in
         a poorly written contract, developed in conjuction with NNALEA, that contained
         significant contract defects, allowing NNALEA the opportunity to take advantage
         of OJS to produce unusable contract deliverables.




                                                                                              1

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         Introduction
         Objective
         The objective of our evaluation was to determine if the Bureau of Indian Affairs
         (BIA) Office of Justice Services (OJS) received the intended benefit from
         awarding a recruitment services contract to the National Native American Law
         Enforcement Association (NNALEA).

         Background
         During our office’s previous review of staffing needs for BIA detention facilities,
         we learned that on June 9, 2009, BIA awarded a $1 million, 1-year contract to
         NNALEA to recruit for and hire critically needed law enforcement officers
         (police, corrections, and criminal investigator positions) to work in Indian
         Country. 1 In 2009, our review of the contract identified deficiencies in the award
         process, price negotiation, and contract performance requirements, as well as a
         vague statement of work. As a result, we issued a management advisory report
         recommending that BIA terminate the contract. 2 Based on our report and advice
         from the Office of the Solicitor, BIA terminated the contract for convenience on
         February 25, 2010. At that time, the contract had been in place for 8 months and
         BIA had paid $967,100, nearly the entire contract value of $1 million, to the
         contractor, NNALEA, for its recruitment efforts.

         The need for OJS to initiate hiring law enforcement officers escalated in 2007. A
         senior OJS official told us that Senator Byron Dorgan, former chairman of the
         Senate Committee on Indian Affairs, along with high-level BIA officials,
         pressured OJS to hire additional law enforcement positions. This resulted in OJS
         identifying the need to hire 121 police officers, 68 correctional officers, and 23
         criminal investigators.

         The idea to hire a contractor to recruit law enforcement officers originated with a
         former director of the Office of Human Capital Management, BIA’s Human
         Resources office. In 2007, this office prepared the contract’s initial “performance
         work statement,” also called a statement of work, which is a list of deliverables
         that the contractor must accomplish to fully comply with the terms and conditions
         of the contract. Potential contractors typically use the initial statement of work to
         prepare bids in response to official contract solicitations.

         In 2008, OJS and its contracting office took over full responsibility for the
         planning, solicitation, award, execution, and management of the recruitment
         services contract. In June 2008, BIA received two bids. NNALEA and the


         1
           Final Evaluation – Bureau of Indian Affairs’ Detention Facilities (Report No. WR-EV-BIA-0005-2010),

         dated March 31, 2011.

         2
           Bureau of Indian Affairs’ Contract with the National Native American Law Enforcement Association

         Contract Number CBK00090002 (Report No. WR-EV-BIA-0015-2009), dated February 2, 2010.


                                                                                                                  2

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
                                                             submitted technical proposals, including
         detailed bids for $1.7 million and                  million respectively.

         From June through September 2008, OJS convened an evaluation panel consisting
         of four OJS employees to rate the two technical proposals. In April 2009, a final
         consensus technical evaluation was completed and NNALEA was selected.
         Although NNALEA’s bid was the highest, the evaluation panel believed that
         NNALEA had the historical knowledge and social network to recruit qualified
         law enforcement applicants. This belief was based on OJS officials’ previous
         experiences with NNALEA, such as attending its annual conferences.

         In NNALEA’s technical proposal, the chief executive officer (CEO) stated that he
         had retired as a deputy assistant director of the U.S. Secret Service (USSS). The
         CEO also stated that he:

              •	 Worked in the Offices of Human Resources and Training, Inspection, and
                 Government and Public Affairs while at USSS;
              •	 Received training that included personnel management, ethics, and law
                 enforcement;
              •	 Served on a number of Department of Homeland Security committees and
                 Department of Justice working groups, several of which involved Native
                 American law enforcement issues; and
              •	 Testified before the Senate Committee on Indian Affairs on issues

                 pertaining to homeland security.


         In its technical proposal, NNALEA stated that it would “deliver 500 applicants
         that meet or exceed the legislative requirements” set forth in various regulations
         and guidelines applicable to employment of Federal law enforcement officers.
         NNALEA also stated that it would refer 500 “qualified candidates” to serve in
         law enforcement positions at various Indian reservations. The technical proposal
         also listed a number of steps that NNALEA would take “to ensure that the job
         applicants are qualified.”

         When it accepted NNALEA’s bid of $1.7 million, OJS had already determined
         that it had only $1 million to spend on recruitment services. NNALEA and BIA
         entered into negotiations to reduce contract requirements, level of recruitment
         services, and contract amount to an exact $1million. These negotiations resulted
         in the statement of work being revised multiple times.

         On June 9, 2009, BIA entered into a 1-year, $1 million, performance-based, firm-
         fixed price contract 3 with NNALEA to provide 500 prescreened applications.
         At the time of the contract award, BIA’s Human Resources office was in the
         process of transitioning from a manual to an electronic application process.
         Human Resources officials told us that OJS never contacted them about the
         3
           A performance-based firm-fixed price contract is a contract in which the deliverable is defined, as well as
         the price for providing the deliverable.

                                                                                                                         3

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         contract’s statement of work, deliverables, or terms. In addition, they indicated
         that the hard copy, paper applications provided under the terms of the contract
         were useless to them, following their change to electronic processing, because
         applicants entered their personal information directly into USA JOBS.




                                                                                             4

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         Findings
         BIA wasted almost $1 million, the full contract amount, by awarding a
         recruitment services contract to NNALEA. This occurred because BIA violated
         Federal Acquisition Regulations (FAR) (see appendix 3) and Departmental policy
         and failed to use its available human resource experience in developing contract
         terms. These failures resulted in a poorly written contract, developed in
         conjunction with NNALEA, with significant contract defects in terms and
         conditions. This allowed NNALEA to take advantage of OJS and the contract
         defects to produce unusable contract deliverables.

         BIA Violated Federal Acquisition Regulations
         Contract Award
         As previously reported in our management advisory report, BIA violated
         procurement regulations by awarding the contract to an organization whose board
         was comprised of primarily current Government employees (FAR 3.601). At the
         time of contract award, 5 of 7 NNALEA executive board members were current
         Government employees from agencies such as the U.S. Drug Enforcement
         Administration; U.S. Secret Service; and Bureau of Alcohol, Tobacco, Firearms,
         and Explosives. Although regulations allow the agency head or certain designees
         to authorize an exception for a compelling reason, such as when the
         Government’s needs cannot be otherwise met (FAR 3.602), we found no such
         exception documented in the contract files. By appointing NNALEA dues paying
         members to participate on the technical panel that evaluated and selected
         NNALEA as the contractor, BIA created an appearance of a conflict of interest.

         Acquisition Planning and Market Research
         We found no evidence of acquisition planning and market research, which are
         required by regulations (FAR 7.102 (a)) for all acquisitions to promote and
         provide for full and open competition and selection of the appropriate contract
         instrument.

         The contracting officer stated that he did not conduct market research, even
         though it is required by regulations to establish cost reasonableness. This research
         is also necessary to evaluate technical proposals from potential contractors.
         Generally, contracting officers use such techniques as seeking advice about
         similar goods and services from knowledgeable individuals in government and
         industry. We found no evidence in the contract files that the contracting officer
         sought such advice for the contract.

         Although neither the OJS program office nor the contracting office conducted
         pre-acquisition market research, BIA’s Human Resources office somehow
         established an independent Government cost estimate of $300,000, as listed in the
         contract proposal evaluation documents. The contracting officer stated that it was
         his “gut” feeling that the independent Government cost estimate was “nowhere

                                                                                            5

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         close to reality.” We found no evidence in the contract file that showed how cost
         estimates were developed or what reference material was used to establish the
         independent Government cost estimate of $300,000.

         Competition
         BIA did not seek “full and open” competition for the contract as required by
         regulations (FAR 6.101 (a)). The Bureau received two technical proposals in
         response to its initial solicitation for bids: NNALEA ($1.7 million) and
                                                . An OJS official knew they had only $1
         million to spend when they reviewed the two proposals, but selected NNALEA as
         the contractor. Regulations require that the contracting officer advise OJS
         officials to modify the statement of work commensurate with the budgeted $1
         million and then seek new bidders through competition (FAR 15.206). Instead,
         OJS officials and NNALEA negotiated to reduce the contract amount from $1.7
         million to $1 million. In the process, BIA and NNALEA significantly modified
         the contract’s statement of work. For example, the original statement of work
         required NNALEA to determine that Native American candidates in order to
         qualify met the requirements of the Indian Law Enforcement Reform Act. Under
         the revised contract terms, NNALEA only needed to review the application
         materials submitted by every applicant.

         Cost Reasonableness
         BIA did not determine price reasonableness of the contract as required by
         regulations (FAR 15.404 -1(a)). Before awarding a contract, the contracting
         officer is required to generally determine whether a proposed price is reasonable.
         In this case, the contracting officer stated that he derived the $1 million estimate
         from his personal and professional opinion in contracting. During our review,
         however, we found no evidence in the files to support this price other than that $1
         million was available for the contract. The contracting officer admitted that after
         the statement of work was significantly changed, the contract price was no longer
         reasonable.

         Regulations state that contracting officers are responsible for purchasing services
         at fair and reasonable prices (FAR 15.4). In cases where the offered price is not
         based on adequate price competition, the determination of price reasonableness
         may require obtaining cost or pricing data, or making comparisons with prices on
         previous procurements or with the independent Government cost estimates (FAR
         15.403). As previously reported, the contracting officer did not conduct market
         research, seek adequate competition, or otherwise take steps to determine contract
         price reasonableness.

         Performance-Based Acquisition
         The NNALEA contract did not describe BIA’s recruitment needs, or how
         NNALEA would meet them. Performance-based acquisition is preferred for
         acquiring services, and regulations hold agency officials responsible for
         accurately describing in the contract both the need for services and how it will be

                                                                                               6

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         fulfilled (FAR 37.102 (a) and (e)). Regulations (FAR 37.601) state that
         performance-based contracts for services shall include a performance work
         statement and measurable performance standards. Measurable standards could be
         in terms of quality, timeliness, and quantity.

         Although the NNALEA contract included a performance work statement, the
         statement did not describe OJS requirements for law enforcement applicants. For
         example, the statement did not specify an applicant’s age, citizenship, educational
         background, criminal record, or fitness requirements. In addition, the contract
         gave the contracting officer the right to assess whether or not performance was
         accomplished in accordance with the terms of the contract, but the terms of the
         contract were so poorly written that the contracting officer could not make such
         an assessment.

         Statement of Work
         BIA did not write a statement of work that contained descriptors necessary to
         determine the extent of contract deliverables, for a firm-fixed price performance-
         based contract.

         Regulations require that Bureau program officials accurately describe the need to
         be filled or problem to be resolved through a service contract in a manner that
         ensures full understanding and responsive performance by contractors (FAR
         37.102 (e)). Based on this regulation, Bureau program officials should have
         obtained assistance from contracting officials to expand and clarify descriptors.

         Although responsible for ensuring that all required minimum job qualification
         standards were included and clearly described in the contract statement of work,
         BIA failed to do so. For example, BIA did not specify the applicant’s age
         requirement in the contract, which for OJS law enforcement positions is no older
         than 37 years of age. Being a law enforcement association, however, NNALEA
         should have been aware of age restrictions for these types of positions. In
         addition, there was no requirement that NNALEA recruit, prescreen, and refer a
         specific number of applicants for each position.

         OJS prepared the statement of work that was significantly revised by NNALEA,
         and was provided to the contracting officer for review. The contracting officer
         stated that he reviewed the document for editorial changes only and not for
         content.

         Expertise of Evaluation Panelists
         The evaluation panel selecting the contractor did not have the necessary expertise
         to properly evaluate the technical proposals. Regulations require that the
         contracting officer establish an evaluation team, tailored for the particular
         acquisition, that includes appropriate contracting, legal, logistics, technical, and
         other expertise to ensure a comprehensive evaluation (FAR 15.303 (a) and (b)(1)).



                                                                                              7

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         Of the four selected OJS officials which were selected by the contracting officer’s
         technical representative, one official expressed concerns that they had neither the
         knowledge nor the experience to properly review the bid proposals. This panel,
         however, was still responsible for selecting the contractor. Based on the expertise
         that NNALEA claimed to have, the panel assumed that NNALEA had the
         historical knowledge and social network to recruit qualified law enforcement
         applicants.

         Required Solicitor Review
         BIA violated DOI legal review policy for “Acquisition and Acquisition-Related
         Transactions.” Specifically, the contracting officer did not submit the proposed
         contract solicitation and proposed negotiated contract documents to the Solicitor’s
         Office for legal review prior to contract award. The Departmentwide legal review
         policy requires the bureaus and offices to submit all proposed negotiated
         contractual documents on acquisitions in excess of $500,000 to the Solicitor’s
         Office prior to award for legal review, advice, and/or concurrence (DOI
         Acquisition Policy Release, 2001-3).

         Termination
         BIA did not follow proper closeout procedures when it terminated the contract for
         convenience and paid settlement costs of $600,000 to NNALEA. Regulations
         require the contracting officer to refer a settlement proposal of $100,000 or more
         to the appropriate audit agency for review and recommendations (FAR 49.107).
         Departmental policy (360 DM 2.3) requires that audits of such settlement
         proposals be referred to the OIG Director of External Audits. This referral is
         necessary to validate the planned settlement amounts. Although BIA worked with
         the Office of the Solicitor to develop a termination and settlement agreement, we
         found no evidence that BIA referred the settlement proposal for audit review as
         required.

         NNALEA Capitalized on Bureau Failures
         Modified Statement of Work
         BIA officials negotiated with NNALEA’s CEO to modify the statement of work,
         which was incorporated into the contract and signed.

         The most significant modification to the statement of work eliminated OJS’s need
         for 500 qualified Native American law enforcement applicants and replaced it
         with 500 pre-screened potential applicants. Although OJS was seeking new law
         enforcement applicants to work in Indian Country, this modification removed the
         requirement that an applicant be qualified for the position and be of Native
         American heritage to be counted as a contract deliverable applicant.

         In addition, the modification removed the requirement that the applicant must be
         otherwise qualified to seek employment as a police officer, correctional officer, or
         criminal investigator. To illustrate, the modified statement of work removed the
         requirement that a law enforcement applicant must be no older than 37 years old,

                                                                                           8

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         have a valid license to drive, be a U.S. citizen free of felony convictions, and meet
         educational requirements.

         BIA Officials Lacked Experience
         We found that NNALEA took advantage of OJS program officials’ inexperience
         and contracting officer’s failures to reduce how much work was required to
         satisfy the terms of the contract.

         Senior OJS program officials told us that they were not trained to write statements
         of work or negotiate contract terms and that they did not have the knowledge,
         training, and experience to do so. When NNALEA’s CEO proposed significant
         modifications to the statement of work, BIA officials simply accepted them in
         part because they said that they were under pressure to get the contract out.

         In addition to the program officials’ inexperience and inability to write an
         effective statement of work and negotiate contract terms, the contracting officer
         did not conduct any market research to determine an estimated cost of obtaining
         qualified law enforcement applicants. The contracting officer did not even
         question the significant modifications made to the statement of work that reduced
         NNALEA’s performance requirements, stating simply that he reviewed it for only
         editorial changes, and not content.

         In addition, the contracting officer was required by regulations to seek additional
         competition by readvertising the contract and soliciting additional bids because of
         the significant changes made to the statement of work and the reduced contract
         amount, but he failed to do so (FAR 15.206). In the end, the contracting officer’s
         actions resulted in the award of a non-competitive contract that was tailored to
         meet the needs of NNALEA without regard to justification and compliance with
         regulations. Further, the contracting officer’s actions resulted in OJS failing to
         achieve its desired results of obtaining qualified Native American applicants.

         Human Resources Office Involvement Omitted
         BIA’s Human Resources office was omitted from the contract solicitation, award,
         and contract deliverable process. The idea to contract out for law enforcement
         recruitment services and the initial development of the statement of work
         originated with a former director of BIA’s Human Resources office. We were told
         that in 2008, Human Resources staff quit working on the statement of work,
         leaving its development to the program office. OJS program officials, including
         that office’s former deputy director, and the contracting officer almost exclusively
         prepared the contract.

         At the time of our review, Human Resources officials did not understand why
         they were not involved in the process. Based on our review of the contract files,
         we found little to no communication between OJS officials and the Human
         Resources office during the contract period. We believe that if these two offices
         had effectively communicated with each other on the contract statement of work,

                                                                                             9

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         evaluation and selection panel, and contract deliverables requirements, the
         contract would have better reflected OJS’s law enforcement needs.

         Unusable Deliverables
         NNALEA provided OJS with 748 applications, none of which were of use to OJS.

         Upon delivery, OJS officials reviewed the first batch of applications, finding them
         to be generally unacceptable because they were incomplete and/or applicants
         exceeded age requirements, did not have Indian preference, and/or had criminal
         records. Specifically, we reviewed 514 applications for age, felony records,
         citizenship, driver’s license, educational requirements, required documentation,
         and position applied. We found 244 applications (47 percent) to be unacceptable
         because applicants were not qualified for the position applied for or applications
         were incomplete. For example, one applicant was born in 1929, which is clearly
         too old at 80 years of age. Other examples include the following:

             •	 3 applicants were not U.S. citizens;
             •	 104 applicants were either too old or too young;
             •	 3 applicants did not have a driver’s license;
             •	 26 applications were missing critical documents required by the contract;
             •	 47 applicants lacked a 4-year degree for the criminal investigator position;
                and
             •	 119 applicants did not specify the position they were applying for, which
                is an Office of Personnel Management requirement (see appendix 4 for
                additional details).

         According to BIA’s Human Resources deputy director, NNALEA’s CEO stated
         that he would focus his recruitment efforts in Indian Country. We found that
         recruitment in Indian Country was ineffective, with only 22 of 514 applicants (or
         about 4 percent) having Indian preference.

         BIA determined the applications to be unacceptable and did not use any of the
         applications, both because of the content and the format did not meet the current
         applicant recruitment system requirements.We noted that Human Resources
         officials subsequently received telephone calls from applicants inquiring about the
         status of their job applications and employment opportunity. We also interviewed
         56 applicants, finding that some were unhappy with the lack of feedback from
         NNALEA regarding their application status. OJS’ inability to use the applications
         and its subsequent actions frustrated some job applicants.

         Conflicting Reported Accomplishments
         We identified two instances where the information we obtained conflicted with
         the reported accomplishments by NNALEA. NNALEA submitted six invoices to
         BIA for payment during the contract period. Each invoice included an “Outline
         Report of Activities and Accomplishments,” which contained 5-7 pages of
         narrative describing NNALEA’s planning and recruitment efforts, and completed

                                                                                          10

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         accomplishments for the previous month. In the first instance, NNALEA reported
         that it conducted an onsite recruiting event at the Crow Fair Celebration, held
         August 13-17, 2009. The contracting officer’s technical representative, however,
         told us that they attended the Celebration and did not observe a NNALEA
         recruiting booth or representative in attendance. In the second instance, NNALEA
         reported that it placed recruiting advertisements in the Aberdeen News, a news
         publication that is circulated in South Dakota, for October 11, 2009, and October
         18, 2009. An Aberdeen News representative, however, told us that they had no
         record of NNALEA placing the advertisements.

         We attempted to interview current members of the NNALEA board of directors
         about their knowledge of NNALEA’s implementation and performance of the
         contract. These directors, all of whom were Federal law enforcement agents,
         declined to participate in an interview on advice of NNALEA’s counsel. Although
         we initially interviewed NNALEA’s CEO about the contract, he also declined to
         be interviewed further on advice of counsel.




                                                                                       11

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         Conclusion and Recommendation
         Conclusion
         BIA wasted almost $1 million of appropriated funds intended to fill critically
         needed law enforcement officers positions in Indian Country. This amount also
         does not include the associated costs incurred by BIA and other Departmental
         officials for over 2 years to plan, solicit, award, oversee, and terminate the
         NNALEA contract. Furthermore, this contract caused OJS to lose potential
         applicants.

         The purpose of Federal Acquisition Regulations is to provide “uniform policies
         and procedures for acquisition” and ensure “full and open” competition. Among
         its guiding principles is to have an acquisition system that conducts business with
         integrity, fairness, and openness. BIA ignored regulations and Departmental
         policy, choosing to negotiate contract terms with a contractor without the benefit
         of expert advice. This resulted in the award of a defective contract that was
         neither open to competition nor embodied fair and transparent business practices.

         Recommendation
         We recommend that the Assistant Secretary for Indian Affairs direct BIA to:

         Increase its internal control and accountability efforts over its contracting program
         to satisfy that the program is in full compliance with Federal Acquisition
         Regulations and Departmental policy. These efforts should be accomplished in
         coordination with its management responsibilities under OMB Circular A-123,
         “Management’s Responsibility for Internal Control,” to continuously assess,
         monitor, and improve the effectiveness of program internal controls given the
         deficiencies identified in this report.




                                                                                           12

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         Appendix 1: Scope, Methodology, and
         Sites Visited and/or Contacted
         Scope
         Our scope covered 2007 through 2010, which included contract conception to
         contract termination. We conducted our evaluation in accordance with the Quality
         Standards for Inspections as put forth by the President’s Council on Integrity and
         Efficiency. We believe that the work performed provides a reasonable basis for
         our conclusions and recommendations

         Methodology
         To accomplish our objective, we conducted the following activities:

             •	 Reviewed contract file, including contract solicitation, award, and
                termination documents, NNALEA invoices and reports, and other related
                documents;
             •	 Reviewed applicable laws, regulations, and bureau policies and procedures
                related to the contract;
             •	 Interviewed Indian Affairs and BIA officials;
             •	 Interviewed Solicitor Office officials;
             •	 Interviewed applicants;
             •	 Analyzed contract deliverables and NNALEA’s reported

                accomplishments; and

             •	 Conducted an investigative inquiry.

         Site Visits and Contacts
         During our evaluation, we visited the following sites:

             •	 Indian Affair’s offices in Anadarko, OK, and in Herndon, VA; and
             •	 BIA offices in Washington, DC, and Reston, VA.

         We also contacted the BIA office in Albuquerque, NM, and NNALEA
         Headquarters in Washington, DC.




                                                                                        13

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         Appendix 2: Funds to be Put to Better
         Use
                                                         Funds to be Put
                     ISSUE                Rec. #
                                                          to Better Use
              Funds wasted due to
              award of defective             1                   $967,100
              service contract




                                                                                 14

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         Appendix 3: Federal Regulations

                     Citation                                   Excerpt
                                      Federal Ethics Standards
            5 C.F.R. § 2635.101(b) (8)     Federal employees are under a duty to avoid
            and (14)                       any actions creating the appearance that they
                                           are violating the law or ethical standards.
                                           Employees must act impartially and not give
                                           preferential treatment to any private
                                           organization or individual.
                                   Federal Acquisition Regulations
            Part 3 - Improper Business A contracting officer shall not knowingly award
            Practices and Personal         a contract to a Government employee or to a
            Conflicts of Interest,         business concern or other organization owned
            Subpart 3.6 - Contracts        or substantially owned or controlled by one or
            with Government                more Government employees. The agency
            Employees or                   head, or a designee not below the level of the
            Organizations Owned or         head of the contracting activity, may authorize
            Controlled by Them,            an exception only if there is a most compelling
            3.601(a) Policy and 3.602      reason to do so, such as when the
            Exceptions                     Government’s needs cannot reasonably be
                                           otherwise met.
            Part 6 - Competition           Contracting officers shall promote and provide
            Requirements, Subpart 6.1 - for full and open competition in soliciting offers
            Full and Open Competition, and awarding government contracts.
            6.101(a) Policy
            Part 7 – Acquisition           Agencies shall perform acquisition planning and
            Planning, Subpart 7.1 -        conduct market research for all acquisitions in
            Acquisition Plans,             order to promote and provide for acquisition
            7.102(a)(1)-(3) Policy and     of commercial items or non-developmental
            7.103(f) Agency-head           items, full and open competition, and selection
            responsibilities               of the appropriate contract type.
                                           The agency head or designee shall prescribe
                                           procedures for ensuring that the statement of
                                           work is closely aligned with performance
                                           outcomes and cost estimates.




                                                                                        15

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
                     Citation                                   Excerpt
                                   Federal Acquistion Regulations
            Part 10 – Market Research, Agencies must conduct market research
            10.001(a)(ii) Policy and      appropriate to the circumstances before
            10.002(b)(2)(i) Procedures soliciting offers for acquisitions with an
                                          estimate value in excess of the simplified
                                          acquisition threshold.
                                          Techniques for conducting market research
                                          may include contacting knowledgeable
                                          individuals in government and industry
                                          regarding market capabilities to meet
                                          requirements.
            Part 15 – Contracting by      If, in the judgment of the contracting officer,
            Negotiation, Subpart 15.2 – based on market research or otherwise, an
            Solicitation and Receipt of   amendment proposed for issuance after offers
            Proposals and Information, have been received is so substantial as to
            15.206(e) Amending the        exceed what prospective offerors reasonably
            Solicitation                  could have anticipated, so that additional
                                          sources likely would have submitted offers had
                                          the substance of the amendment been known
                                          to them, the contracting officer shall cancel the
                                          original solicitation and issue a new one,
                                          regardless of the stage of the acquisition.
            Part 15 – Contracting by      The contracting officer, designated as the
            Negotiation, Subpart 15.3 – source selection authority, shall establish an
            Source Selection, 15.303(a), evaluation team, tailored for the particular
            (b)(1) Responsibilities and   acquisition that includes appropriate
            15.305(a)(1) Proposal         contracting, legal, logistics, technical, and other
            Evaluation                    expertise, to ensure a comprehensive
                                          evaluation of offers.
                                          Normally, competition establishes price
                                          reasonableness. Therefore, when contracting
                                          on a firm-fixed-price or fixed-price with
                                          economic price adjustment basis, comparison
                                          of the proposed prices will usually satisfy the
                                          requirement to perform a price analysis, and a
                                          cost analysis need not be performed.




                                                                                           16

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
                        Citation                                 Excerpt
            Part 15 – Contracting by       Contracting officers shall purchase supplies and
            Negotiation, Subpart 15.4 –    services from responsible sources at fair and
            Contract Pricing, 15.402 (a)   reasonable prices.
            Pricing Policy, 15.404-        The Contracting officer is responsible for
            1(a)(1) and 15.404-1(2)(i),    evaluating the reasonableness of the offered
            (ii), (v) and (vi) Proposal    prices.
            Analysis Techniques            The Government may use various price analysis
                                           techniques and procedures to ensure a fair and
                                           reasonable price. For example, comparison of
                                           proposed prices (1) received in response to the
                                           solicitation, (2) to historical prices paid, (3)
                                           with independent Government cost estimates,
                                           and (4) with prices obtained through market
                                           research for the same or similar items.
            Part 37 – Service              Agency program officials are responsible for
            Contracting, Subpart 37.1 –    accurately describing the need to be filled, or
            Service Contracts,             problem to be resolved, through service
            37.102(e) Policy               contracting in a manner that ensures full
                                           understanding and responsive performance by
                                           contractors and, in so doing, should obtain
                                           assistance from contracting officials, as needed.
            Subpart 37.6- Performance-     Performance-based contracts for services shall
            Based Acquisition,             include a performance work statement and
            37.601(b)(1)-(2) General       measurable performance standards (i.e., in
                                           terms of quality, timeliness, quantity, etc.).
            Part 42 – Contract             Agency evaluations of contractor performance
            Administration and Audit       prepared under this subpart shall be provided
            Services, Subpart 42.15 -      to the contractor as soon as practicable after
            Contractor Performance         completion of the evaluation.
            Information, 42.1503(b), (f)   Agencies shall ensure information is reported in
            Procedures                     the Federal Awardee Performance and Integrity
                                           Information System module of the Past
                                           Performance Information Retrieval System
                                           within 3 working days after a contracting officer
                                           issues a final termination for cause or default
                                           notice.
            Part 49 – Termination of       The Termination Contracting Officer shall refer
            Contracts, Subpart 49.1 –      each prime contractor settlement proposal of
            General Principles, 49.107     $100,000 or more to the appropriate audit
            Audit of prime contract        agency for review and recommendations.
            settlement proposals and
            subcontract settlements




                                                                                         17

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
                      Citation                             Excerpt
            Part 52 - Solicitation     The Contracting Officer shall determine
            Provisions and Contract    whether the event or performance criterion
            Clauses, Subpart 52.2 -    for which payment is requested has been
            Text of Provisions and     successfully accomplished in accordance with
            Clauses, 52.232-32         the terms of the contract. The Contracting
            Performance-Based          Officer may, at any time, require the contractor
            Payments                   to substantiate the successful performance of
                                       any event or performance criterion which has
                                       been or is represented as being payable.




                                                                                    18

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
         Appendix 4: Unusable Contract
         Deliverables
                                        Unacceptable Applications

              Application               Delivery                               Unacceptable
                                                         Applications
                Batch                    Date                                  Applications
                   1                     9/21/2009                  122                        58
                   2                    10/27/2009                  126                        67
                   3                    11/20/2009                   97                        49
                   4                     12/4/2009                   62                        21
                   5                     12/8/2009                   31                        14
                   6                    12/15/2009                   76                        35
                  Total                                             514                       244

         Figure 1. The total number of unacceptable applications out of the total number of
         applications delivered under the contract, broken down by batch number and delivery date.

                 Number of Unacceptable Applications by Batch and Type

         Issue Batch            1          2         3         4          5        6        Total
         Unacceptable
         Applications            58         67           49        21         14       35     244
         Not a US
         Citizen                    1          2          0         0          0        0       3
         Doesn’t Meet
         Age
         Requirement             27         31           22        6          5        13     104
         No Driver’s
         License                    0          2          0         0          0        1       3
         Missing
         Required
         Documents                  6          8          7        2          1        2       26
         Doesn’t Meet
         Education
         Requirements               9       13            8         3          3       11      47
         Position Not
         Specified               26         29           24        15         8        17     119

         Figure 2. The total number of applications determined to be unacceptable because they did
         not meet contract, law enforcement, and/or OPM requirements.




                                                                                                 19

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
                   Comparison - Payments vs. Applicant File Delivery
                    Invoice   Invoice   Applicant Applicants Delivery
          Invoice
                     Date     Amount      Batch                     Date
             1       7/2/2009 $108,025       1              122 9/21/2009
             2     8/13/2009   $97,025       2              126 10/27/2009
             3      9/22/2009   $81,525      3               97 11/20/2009
             4    10/14/2009   $80,525       4               62 12/4/2009
                                             5               31    12/8/2009
                                             6               76 12/15/2009
           Totals              $367,100                     514

         Figure 3. The amount and date of payments made by BIA before contract termination as
         compared to the number and date of applications delivered by NNALEA.




                                                                                                20

All redactions are 5 U.S.C. § 552 (b)(4) of the FOIA, unless otherwise stated.
                                    


            Report Fraud, Waste,                                      
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                               
                                                            800-424-5081
                        Washington Metro Area               202-208-5300
                                                                        
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                            
